No.__________
IN THE SUPREME COURT OF THE UNITED STATES
FERNANDO JUAREZ, PETITIONER
V.

UNITED STATES OF AMERICA
_____________
ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT

_____________
CERTIFICATE OF SERVICE

_____________
The undersigned, an attorney and a member of the Bar of this Court, certifies that
pursuant to Supreme Court Rule 29.3 he served Fernando Juarez’s Motion for Leave to
Proceed In Forma Pauperis and Petition for Writ of Certiorari on Counsel for the United
States:
The Honorable Jeffrey Wall
Acting Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Avenue NW, Room 5614
Washington, D.C. 20530
(202) 514-2201
Service was made by enclosing a copy of the Motion and a copy of the Petition in an
envelope addressed to the Solicitor General and then depositing the envelope in the United
States mail at San Antonio, Texas, on November 2, 2020. A copy of the petition was also
mailed to Assistant U.S. Attorney Joseph H. Gay Jr. at his office at 601 NW Loop 410, Ste

600, San Antonio, Texas 78216. Counsel further certifies that all parties required to be
served have been served.

/s/ PHILIP J. LYNCH
Counsel of Record for Petitioner

